No. _________
6th Circuit
20-1255
___________________________________________________
_______
IN THE
Supreme Court of the United States
CORNELIUS S. BERRY and
CASSANDRA D. BERRY,
PETITIONER,
v.
DEUTSCHE BANK, NATIONAL TRUST COMPANY
as Trustee for GSAA Home Equity Trust 2006-17
TIMOTHY CHERVENAK, PHH MORTGAGE, and
OCWEN LOAN SERVICING, LLC,
RESPONDENTS.
___________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
___________
Darwyn P. Fair & Associates, P.C.
Darwyn P. Fair (P31266)
535 Griswold, Ste. 111-554
Detroit, MI 48226
(313) 967-0595
dpfair@dpfairlaw.com
Attorneys for Petitioners

i
QUESTIONS PRESENTED
WHETHER THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT ERRED IN
AFFIRMING THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT OF
MICHIGAN
OPINION
GRANTING
RESPONDENTS’ MOTION TO DISMISS WHEN
THE CASE WAS ADJOURNED NUMEROUS
TIMES IN ORDER FOR THE PARTIES TO
RESOLVE THE CASE OR ALLOW PETITIONERS
TO ANSWER THE MOTION TO DISMISS OR IN
THE ALTERNATIVE ALLOW THE PETITIONERS
TO AMEND THE COMPLAINT?

ii
PARTIES TO THE PROCEEDING
CORNELIUS S. BERRY and CASSANDRA D.
BERRY,
PETITIONERS
DEUTSCHE BANK NATIONAL TRUST COMPANY,
as Trustee for GSAA Home Equity Trust 2006-17;
TIMOTHY CHERVENAK; PHH MORTGAGE; and
OCWEN LOAN SERVICING, LLC.,
RESPONDENTS

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDING

ii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT PROVISIONS INVOLVED

1

STATEMENT

2

REASONS FOR GRANTING THE PETITION

3

CONCLUSION

5

APPENDIX

6

iv
TABLE OF AUTHORITIES
CASES

Page

In re Air Crash Disaster, 86 F.3d 498, 516
(6th Cir. 1996) ………………………………...……….. 1, 3
Jones v. Northcoast Behavioral Healthcare Sys.,
84 F. App’x 597, 599, 2003 WL 23140062
(6th Cir. 2003) …………………………………...…….. 1, 3
Tellabs, Inc. v. Makor Issues & Rights, Ltd. ,
551 U.S. 308, 127 S.Ct. 2499, 2509 (2007) ………..…. 4
STATUTES
28 U.S.C. §1254(1) ………………………………………. 1

1
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Sixth Circuit and the opinion of the
United States District Court for the Eastern District of
Michigan were unpublished opinions.
JURISDICTION
The decision of the United States Court of
Appeals for the Sixth Circuit, affirming the appeal
from the District Court’s Granting Respondents’
Motion to Dismiss When the Case was Adjourned
Numerous Times in Order for The Parties to
Resolve the Case or Allow Petitioners to Answer the
Motion to Dismiss or in The Alternative Allow the
Petitioners to Amend the Complaint on December
14, 2020. This Court has jurisdiction pursuant to 28
U.S.C. §1254(1).
RELEVANT PROVISIONS INVOLVED
Jones v. Northcoast Behavioral Healthcare Sys., 84 F.
App’x 597, 599, 2003 WL 23140062 (6th Cir. 2003)
(citing In re Air Crash Disaster, 86 F.3d 498, 516 (6th
Cir. 1996)).

2
STATEMENT
In the State Circuit Court, Petitioners filed an
In Pro Per action for Quite Title and Injunction. The
action was removed to Federal Court based upon
diversity of citizenship.
Respondents filed a Motion to Dismiss which
was granted When the Case Was Adjourned
Numerous Times in Order for The Parties to
Resolve the Case or Allow Petitioners to Answer the
Motion to Dismiss or In the Alternative Allow the
Petitioners to Amend the Complaint.
The Petitioners appealed to the Sixth Circuit
Court of Appeals which affirmed the Federal District
Court opinion.
On June 3, 2019, Petitioners filed the above
captioned case against the Respondents in the
Macomb County Circuit Court. On June 27, 2019,
Respondents removed the case to Federal Court.
On July 3, 2019, Respondents filed a Motion to
Dismiss Petitioners Complaint.
On July 11, 2019, Darwyn P. Fair filed a Notice
of Appearance on behalf of All Petitioners. On July 22,
2019, Darwyn P. Fair filed an Amended Attorney
Appearance on behalf of Petitioners.
There were several Stipulations and Orders
Extending Time for Response to Respondents’ Motion
to Dismiss. Orders were entered: July 29, 2019,
August 19, 2019 and September 9, 2019.
After a Status Conference on February 12, 2020,
the District Court entered an Order granting
Respondents’ Motion to Dismiss.

3
On March 16, 2020, Petitioners timely filed a
Notice of Appeal.
REASONS FOR GRANTING THE PETITION
This is more than a docket management issue.
“The court of appeals will not interfere with the trial
court’s control of its docket except upon the clear
showing that the procedures have resulted in actual
and substantial prejudice to the complaining litigant.”
Jones v. Northcoast Behavioral Healthcare Sys., 84 F.
App’x 597, 599, 2003 WL 23140062 (6th Cir. 2003)
(citing In re Air Crash Disaster, 86 F.3d 498, 516 (6th
Cir. 1996)).
Because of the abrupt dismissal, Petitioners
were not given an opportunity to answer the Motion to
Dismiss. Although Petitioners did not “object to the
Dismissal” Petitioners filing of the current appeal is an
objection to the dismissal. Moreover, the Parties were
still in the process of negotiating the process for
payment to settle the case.
Thus, the District Court’s ruling has had a
devastating effect on the Petitioners ability to pay the
Respondents in that Petitioners had and still have the
ability to pay the Respondents in order to settle the
case. However, Respondents refused to accept how the
payment would be made.
The District Court’s
dismissal gives the Respondents Carte Blanc to refuse
any settlement even though the Petitioners had the
ability to pay. Thus, the District Court ruling
dismissing the case resulted in an actual or
substantial prejudice to the Petitioners.

4
In ruling on a motion to dismiss, the Court may
consider the complaint as well as (1) documents
referenced in the pleadings and central to Petitioners
claims, (2) matters of which a court may properly
take notice, (3) public documents, and (4) letter
decisions of government agencies which are appended
to the motion. Tellabs, Inc. v. Makor Issues & Rights,
Ltd. , 551 U.S. 308, 127 S.Ct. 2499, 2509 (2007)
In the case at bar, at the time of the dismissal it
was not about who would prevail in the litigation but
about how the Parties could settle. And specifically, in
this case how could the Petitioners repurchase the
subject property? The case was adjourned in order for
Parties to negotiate a settlement amount for the
subject property. The opportunity to repurchase the
subject property is now past and the purchase price
and the process for the payment for the subject
property is at the discretion of the Respondents.
Petitioners maintain this is why this matter
should be remanded to the District Court in order for
the Petitioners to pay the settlement amount. Without
the remand, it is extremely unlikely that the
Respondents will attempt to settle the case in light of
the District Court’s February 13, 2020, Order and
Opinion dismissing Petitioners, Complaint.
This Honorable Court has the equitable powers
to reverse the District Court’s Order and Opinion
granting Respondents’ Motions to Dismiss when
Respondents refused to accept the Petitioners’
payment for the subject property.

5
V. CONCLUSION
For the above and foregoing reasons, Petitioners
respectfully request the issuance of a Writ of
Certiorari to the United States Court of Appeals for
the Sixth Circuit.
Respectfully submitted,
DARWYN P. FAIR & ASSOCIATES
/s/Darwyn P. Fair
DARWYN P. FAIR (P31266)
Attorney for Petitioner
535 Griswold, Ste. 111-554
Detroit, Michigan 48226
(313) 967-0595
dpfair@dpfairlaw.com
Dated: May 13, 2021

6
APPENDIX
United States Court of Appeal For the
Sixth Circuit Order and Opinion

7a-7f

United States District Court Eastern
District of Michigan Opinion and Order
Granting Defendants Motion to Dismiss

8a-8b

United States District Court Eastern
District of Michigan Judgment of
Dismissal

9a-9b

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: December 14, 2020
Mr. Darwyn Prentiss Fair
535 Griswold
Suite 111-554
Detroit, MI 48226
Ms. Nasseem Sara Ramin
Mr. Thomas M. Schehr
Dykema Gossett
400 Renaissance Center
Detroit, MI 48243
Ms. Jill Margaret Wheaton
Dykema Gossett
2723 S. State Street Suite 400
Ann Arbor, MI 48104
Re: Case No. 20-1255, Cornelius Berry, et al v.
Deutsche Bank Natl Trust Co, et al
Originating Case No.: 2:19-cv-11912
Dear Counsel,
The Court issued the enclosed opinion today in
this case.
Sincerely yours,
s/Cathryn Lovely
Opinions Deputy

cc: Mr. David J. Weaver
Enclosure
Mandate to issue

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0692n.06
Case No. 20-1255
UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT

FILED
Dec 14, 2020
DEBORAH S. HUNT, Clerk
CORNELIUS S. BERRY; CASSANDRA D. BERRY,
Plaintiff-Appellants,

v.

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE
E A S T E R N DISTRICT
OF MICHIGAN

DEUTSCHE BANK NATIONAL TRUST
COMPANY, As Trustee for GSAA Home Equity
Trust 2006-17; TIMOTHY CHERVENAK; PHH
MORTGAGE CORPORATION; OCWEN LOAN
SERVICING, LLC.,
Defendant-Appellee.
BEFORE: MOORE, COOK, and STRANCH, Circuit
Judges.

COOK, Circuit Judge. Plaintiffs Cornelius and
Cassandra Berry defaulted on their mortgage and lost
their home in a foreclosure sale. They sued to extend
the six-month period for redeeming a foreclosed
property under Michigan law. The defendants—the
loan servicer and mortgage trustee—moved to dismiss
the case for failure to state a claim. The district court
dismissed the case and the plaintiffs appeal.
I.
The Berrys bought their Michigan home with a
$261,200.00 loan secured by a mortgage. Defendant
PHH Mortgage Corporation, successor by merger to
defendant Ocwen Loan Servicing, LLC, serviced the
loan and the mortgage was assigned to defendant
Deutsche Bank National Trust Company, as Trustee
for GSAA Home Equity Trust 2006-17 (the “Trustee”).
The Berrys defaulted on the loan and the
Trustee purchased the property at a sheriff’s sale.
Michigan law allows six months from the date of sale
to redeem foreclosed property. See Mich. Comp. Laws §
600.3240(8). For the Berry property, that period
lapsed without a redemption.
Then, five weeks beyond the redemption period,
the Berrys filed a pro se complaint seeking “Chain of
Title and 3 additional weeks” to redeem the property.
(R. 1-2 at PageID#: 20.)
The defendants moved to dismiss the complaint,
arguing that the Berrys lacked standing because the
expiration of the redemption period extinguished their
prior rights and title to the property. The Berrys—now
represented by counsel—engaged in negotiations with
the defendants and five times over the course of five

months obtained their agreement to extend the Berrys’
deadline to respond to the motion to dismiss. The
district court accepted these agreements, entering a
stipulated order on the docket for each.
Nearly two months after the expiration of the
last stipulation—and seven months after the
defendants filed their motion to dismiss—the Berrys
still had not filed a response, prompting the district
court to hold a status conference. At this conference,
the Berrys, through their attorney, finally acceded to
dismissal. The district court memorialized the status
conference in an order dismissing the case, agreeing
with the defendants that the Berrys lacked standing
and noting that they “neither filed a response to
Defendants’ motion nor object[ed] to dismissal.” (R. 16
at PageID#: 144.) This appeal followed.
II.
The Berrys center their appeal on when the
district court dismissed the case, complaining that the
district court did so “before the parties could settle on
the process for the purchase of the subject property.”
(Appellant Br. at 2.) This argument lacks merit.
The district court granted the Berrys five
extensions to file a response to Defendants’ motion to
dismiss. In the fifth of these extensions, the court
ordered the Berrys to respond by December 18, 2019.
But the Berrys never filed any response. On February
12, 2020, the district court held a status conference,
during which the Berrys did “no[t] object to dismissal.”
(R. 16 at PageID#: 144.) The Berrys concede that they
did not object to dismissal at the status conference.
Under these circumstances, we cannot conclude that

the district court abused its discretion by dismissing
the Berrys’ suit.
We AFFIRM.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CORNELIUS S. BERRY ET AL.,
Plaintiffs,

Case No. 19-11912

v.
SENIOR U.S. DISTRICT
JUDGE ARTHUR J.
TARNOW
U.S. MAGISTRATE JUDGE
R. STEVEN WHALEN
DEUTSCHE BANK NATIONAL TRUST COMPANY,
AS TRUSTEE FOR GSAA HOME EQUITY TRUST
2006-17, ASSET-BACKED CERTIFICATES SERIES
2006- 17 ET AL.,
Defendants.
/
JUDGMENT
All issues having been resolved by the Court’s
Order [16] of February 13,2020, THIS CASE IS
CLOSED.
Dated at Detroit, Michigan, this 13th day of
February 2020.

DAVID J. WEAVER
CLERK OF THE COURT
BY: s/Michael E. Lang
Deputy Clerk
APPROVED:
s/Arthur J. Tarnow
ARTHUR J. TARNOW
SENIOR UNITED STATES DISTRICT
JUDGE

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CORNELIUS S. BERRY ET AL.,
Plaintiffs,

Case No. 19-11912

v.
SENIOR U.S. DISTRICT
JUDGE ARTHUR J.
TARNOW
U.S. MAGISTRATE JUDGE
R. STEVEN WHALEN
DEUTSCHE BANK NATIONAL TRUST COMPANY,
AS TRUSTEE FOR GSAA HOME EQUITY TRUST
2006-17, ASSET-BACKED CERTIFICATES SERIES
2006- 17 ET AL.,
Defendants.
/
ORDER GRANTING DEFENDANTS’ MOTION TO
DISMISS [5]
On June 3, 2019, Plaintiffs Cornelius Berry and
Cassandra Berry commenced this action in Macomb
County Circuit Court asking for three additional
weeks to redeem their foreclosed property. Dkt. #1, Ex.
A. Under 28 U.S.C. 1446, Defendants Deutsche Bank
National Trust Company, As Trustee for GSAA Home
Equity Trust 2006-17, Asset-Backed Certificates Series

2006-17, PHH Mortgage Corporation, and Ocwen Loan
Servicing, LLC removed Plaintiffs’ complaint to this
Court on June 27, 2019.
On July 3, 2019, Defendants filed a Motion to
Dismiss [5] arguing, inter alia, that Plaintiffs lack
standing because they failed to redeem their property
within the statutory redemption period. Dkt. #5, pg. 57; see also Bryan v. JPMorgan Chase Bank, 304 Mich.
App. 708, 713 (2014). This Court agrees. Furthermore,
Plaintiffs neither filed a response to Defendants’
motion nor object to dismissal, as indicated during a
status conference with the Court held on February 12,
2020.
Therefore, for the foregoing reasons and the
reasons stated in Defendants’ motion,
IT IS ORDERED that Defendants’ Motion to
Dismiss [5] is GRANTED.
SO ORDERED.
s/Arthur J. Tarnow
Arthur J. Tarnow
Senior United States
District Judge
Dated: February 13, 2020

